OIG Investigative Reports, Student Loan Fraud Results in Felony Conviction
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE
January 13, 2009
Warren County Prosecutor, Rachel A. Hutzel 500 Justice Drive, Lebanon, OH 45036 (513) 870-3617 http://www.co.warren.oh.us/prosecutor/
Amanda Johnson, a 25 year old Spring Valley resident, was found guilty on one count of grand theft, one count of engaging in a pattern of corrupt activity and three counts of telecommunications fraud. Sentencing has not yet been scheduled. Her coconspirator and former Warren County corrections officer, Linda Abshear, plead guilty to grand theft, forgery and telecommunications fraud in September of 2008.
Johnson and Abshear were involved in an advanced scheme to obtain student loan money and use the money to purchase new cars and luxury items. In total the two were able to fraudulently obtain close to $100,000.
"This is an example of people trying to take advantage of the system," Warren County Prosecutor Rachel Hutzel said. "There are a lot of people out there who use student loans to educate themselves, these women were taking the money and buying luxury items," Hutzel added. "When you illegally take advantage of people in Warren County you are going to be punished."
Top
Printable view
Share this page
Last Modified: 02/05/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov